IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2021

GERALD ALLEN HILER, aka Teg,

PETITIONER,
vs.

UNITED STATES OF AMERICA,
RESPONDENT.

 

Pursuant to Title 28, United States Code, ยง 1915(a) and Rule 39 of this Court, applicant
asks for leave to file the Petition for Writ of Certiorari to the Ninth Circuit Court of Appeals
without prepayment of fees or costs in forma pauperis.

The undersigned counsel was appointed pursuant to 18 U.S.C. ยง 3006A. Therefore, it is
requested that the Court grant leave to file the Petition for Writ of Certiorari without prepayment
of fees or costs in forma pauperis.

I declare under penalty of perjury under the laws of the United States of American, the
foregoing is true and correct.

Dated this Sth day of August, 2021.

 
 
 
 

Respectfully Submitted,

Stephen R. Hormel, Mormel Law Office LLC
17722 East Sprague Avenue

Spokane Valley, WA 99016

Telephone: (509) 926-5177

Facsimile: (509) 926-4318
